      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




May 6, 2010

TO:            Ellen Murray
               Assistant Secretary for Financial Resources


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of the Department of Health & Human Services’ Limited Data-Quality
               Reviews of Information Reported by Recipients of Recovery Act Funds
               (A-09-10-01001)


The attached final report provides the results of our review of the Department of Health
& Human Services’ limited data-quality reviews of information reported by recipients of funds
authorized under the American Recovery and Reinvestment Act of 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-09-10-01001 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF THE DEPARTMENT
  OF HEALTH & HUMAN SERVICES’
LIMITED DATA-QUALITY REVIEWS OF
     INFORMATION REPORTED
        BY RECIPIENTS OF
      RECOVERY ACT FUNDS




                        Daniel R. Levinson
                         Inspector General

                            May 2010
                          A-09-10-01001
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $141 billion to the Department of Health & Human
Services (the Department).

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. Section 1512
requires each recipient to report to the applicable Federal agency, not later than 10 days after the
end of each calendar quarter, (1) the total amount of Recovery Act funds received and the
amount that was expended or obligated, (2) a detailed list of all projects for which Recovery Act
funds were expended or obligated, and (3) detailed information on payments to subrecipients and
vendors.

For the first reporting period, February 17 through September 30, 2009, the Office of
Management and Budget (OMB) issued implementing guidance (memorandum M-09-21) for
section 1512 that requires recipients to report detailed information on their projects. M-09-21
states that Federal agencies should perform limited data-quality reviews intended to identify
material omissions and/or significant errors in the reported information. For the second reporting
period, October 1 through December 31, 2009, OMB updated its guidance (memorandums
M-10-05 and M-10-08) to improve recipient compliance with section 1512.

M-09-21 states that data quality reviews are intended to emphasize the avoidance of material
omissions and significant errors. M-10-08 outlines steps that Federal agencies must take to
identify nonreporting recipients and bring them into compliance with section 1512.

OBJECTIVES

Our objectives were to determine whether (1) the Department’s limited data-quality reviews of
recipient-reported Recovery Act information identified material omissions and significant errors
and (2) the Department took steps to minimize material omissions and significant errors.

SUMMARY OF RESULTS

For the first and second reporting periods, the Department’s limited data-quality reviews of
recipient-reported Recovery Act information identified material omissions and significant errors,
and the Department took several steps to minimize material omissions and significant errors.
Consequently, this report contains no recommendations.




                                                 i
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              American Recovery and Reinvestment Act.........................................................1
              Section 1512 Reporting Requirements ................................................................1
              Office of Management and Budget Implementing Guidance ..............................2
              Office of Recovery Act Coordination..................................................................3
              Prior Office of Inspector General Report.............................................................4

          OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................4
               Objectives ............................................................................................................4
               Scope....................................................................................................................4
               Methodology ........................................................................................................4

RESULTS OF REVIEW ...........................................................................................................5

          IDENTIFYING MATERIAL OMISSIONS AND SIGNIFICANT ERRORS ...............5
               Departmental Guidance .......................................................................................5
               Identifying Material Omissions ...........................................................................6
               Identifying Significant Errors ..............................................................................6

          MINIMIZING MATERIAL OMISSIONS AND SIGNIFICANT ERRORS .................7
               Minimizing Material Omissions ..........................................................................7
               Minimizing Significant Errors .............................................................................8

          CONCLUSION................................................................................................................8




                                                                    ii
                                       INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets.

The Recovery Act provides approximately $141 billion to the Department of Health & Human
Services (the Department) for health care, public health and human service programs, and health
information technology. The majority of the $141 billion is for entitlement and mandatory
programs, such as Medicaid and Temporary Assistance for Needy Families. The remainder is
for discretionary programs, which are funded through grants and contracts. The funding for
discretionary programs includes:

      $10 billion for the National Institutes of Health (NIH) to strengthen scientific research
       and facilities;

      $5.2 billion for the Administration for Children and Families (ACF) to improve services
       for children and communities by temporarily expanding the Head Start, Early Head Start,
       childcare development, and community services programs; and

      $2.5 billion for the Health Resources and Services Administration (HRSA) to strengthen
       community health care services by constructing and renovating health centers, expanding
       health care services, and training health care professionals.

Section 1512 Reporting Requirements

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. A recipient
includes any non-Federal entity, other than an individual, that receives Recovery Act funds
directly from the Federal Government. Section 1512 reporting requirements apply mainly to
recipients of grants, contracts, and loans for discretionary programs. Section 1512(c) requires
each recipient to report to the applicable Federal agency, not later than 10 days after the end of
each calendar quarter:

      the total amount of Recovery Act funds received and the amount that was expended or
       obligated;

      a detailed list of all projects for which Recovery Act funds were expended or obligated,
       including the project name, description, and completion status and an estimate of the
       number of jobs created or retained; and


                                                1
       detailed information on payments to subrecipients and vendors. 1

The first reporting period covered February 17 through September 30, 2009, and the second
reporting period covered October 1 through December 31, 2009.

Office of Management and Budget Implementing Guidance

To implement section 1512 of the Recovery Act, on June 22, 2009, OMB issued memorandum
M-09-21, which requires recipients to report detailed information on their projects. 2 This
guidance applies to recipients of grants, loans, tribal agreements, cooperative agreements, and
other forms of assistance. An interim final rule amended the Federal Acquisition Regulation
(FAR) to require contractors to report on their use of Recovery Act funds (74 Fed. Reg. 14639
(Mar. 31, 2009)). In an unnumbered memorandum dated September 30, 2009, OMB emphasized
that the interim rule remains in effect for contractors and described the requirements for agencies
to review contractor reports and take appropriate action. 3

For the second reporting period, OMB updated its guidance to improve recipient compliance
with section 1512. On November 30, 2009, OMB issued memorandum M-10-05, which requires
Federal agencies to identify noncompliant recipients. On December 18, 2009, OMB issued
memorandum M-10-08, which incorporates lessons learned from the first reporting period and
addresses recommendations from the Government Accountability Office.

OMB’s guidance for the first and second reporting periods establishes the requirements for
agencies to follow in identifying and minimizing material omissions and significant errors in
recipient reports.

Identifying Material Omissions and Significant Errors

Section 4.2 of M-09-21 states that Federal agencies should perform limited data-quality reviews
intended to identify material omissions and/or significant errors in the reported information and
should notify recipients of the need to make appropriate and timely changes. Section 4.1 of
M-09-21 defined material omissions and significant errors as follows:

       Material omissions are those instances in which required data are not reported or
        reported information is not otherwise responsive to the data requested. Such omissions


1
  A vendor is a dealer, distributor, merchant, or other seller providing goods or services for a Federal program. A
recipient or subrecipient may purchase from vendors those goods or services needed to carry out a project (Office of
Management and Budget (OMB) memorandum M-09-21, section 2.2, p. 7 (June 22, 2009)).
2
  Section 3.1 of M-09-21 requires that the information reported by recipients and subrecipients of Recovery Act
funds be submitted through www.federalreporting.gov, reviewed by the funding agency, and published on
www.recovery.gov. Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed
in Supplement 1 of M-09-21.
3
 OMB’s Interim Guidance on Reviewing Contractor Reports on the Use of Recovery Act Funds in Accordance With
FAR Clause 52.204-11.


                                                         2
       would result in significant risk that the public will not be fully informed of the status of a
       Recovery Act project.

      Significant errors are those instances in which required data are not reported accurately.
       Such errors would result in significant risk that the public will be misled or confused by
       the recipient report.

To clarify M-09-21’s instructions, M-10-08 provided the following explanations:

      Material omissions include the failure of recipients to report on awards as required by
       the terms of the awards and the reporting of data that are not responsive to the required
       data element (part 1, section 3.2).

      Significant errors of major concern include errors in the award amount, number of jobs
       retained or created, award number, or recipient name. A report is considered to have a
       significant error if the recipient did not correct the error or submit a reasonable
       explanation of why the data were not in error (part 1, section 3.1).

Minimizing Material Omissions and Significant Errors

Section 4.1 of M-09-21 states that data-quality reviews are intended to emphasize the avoidance
of material omissions and significant errors. Part 1 of M-10-08 provides guidance on improving
the quality of reported data and outlines steps that Federal agencies must take to identify
nonreporting recipients and bring them into compliance with section 1512 of the Recovery Act.

M-10-05 states that a recipient that fails to submit a report is considered to be noncompliant and
subject to Federal action. When a Federal agency identifies a noncompliant recipient, M-10-05
requires the agency to (1) determine an appropriate outreach method and establish contact with
the recipient and (2) assess the severity of and circumstances surrounding the noncompliance and
determine the need for future action regarding the recipient. In addition, part 1, section 6.4, of
M-10-08 requires each agency to submit a complete list of noncompliant recipients to OMB
within 5 days following the final day of the quarterly review period.

Office of Recovery Act Coordination

The Department established the Office of Recovery Act Coordination (ORAC) in the Office of
the Secretary to ensure that the Department meets the requirements of the Recovery Act and
OMB implementing guidance. To carry out its mission, ORAC coordinates closely with the
Department’s operating divisions, which manage Recovery Act funds.

ORAC developed the Department’s process for ensuring that recipients of Recovery Act funds
have clear directions on reporting requirements and that the Department has a consistent
approach to conducting data-quality reviews of the reported information. This process includes
providing information and training to recipients, performing reviews that focus on material
omissions and significant errors, notifying recipients about identified data-quality issues, and
assessing recipient compliance. Each operating division is responsible for following the


                                                 3
Department’s guidance when reviewing and commenting on recipient reports. ORAC compiles
the data from the operating divisions into Departmentwide reports.

Prior Office of Inspector General Report

In a prior report, 4 we found that as of September 30, 2009, the Department had designed a
process to (1) perform limited data-quality reviews intended to identify material omissions
and/or significant errors in information reported by recipients (grantees and contractors) of
Recovery Act funds and (2) notify recipients of the need to make appropriate and timely
changes. The report contained no recommendations.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the Department’s limited data-quality reviews of
recipient-reported Recovery Act information identified material omissions and significant errors
and (2) the Department took steps to minimize material omissions and significant errors.

Scope

We assessed the Department’s limited data-quality reviews of recipient-reported Recovery Act
information for both grants and contracts for the first and second reporting periods.

We performed our audit from November 2009 to March 2010. Our audit included fieldwork at
ORAC’s and ACF’s offices in the District of Columbia; NIH’s office in Bethesda, Maryland;
and HRSA’s office in Rockville, Maryland. 5

Methodology

To accomplish our objectives, we:

       reviewed Federal laws, regulations, and guidance;

       interviewed ORAC officials about their procedures to ensure that the reporting
        requirements of section 1512 of the Recovery Act are met;

       interviewed ORAC officials about the Department’s process for performing limited data-
        quality reviews and the steps that the Department took to minimize material omissions
        and significant errors;


4
 Review of the Department of Health and Human Services’ Process for Performing Limited Data-Quality Reviews
of Information Reported by Recipients of Recovery Act Funds (A-09-09-00113), issued October 21, 2009.
5
  In total, NIH, ACF, and HRSA accounted for approximately 94 percent of the reports submitted for the first
reporting period and 95 percent of the reports submitted for the second reporting period.


                                                         4
      interviewed NIH, ACF, and HRSA officials about their roles in the Department’s limited
       data-quality reviews;

      reviewed guidance issued by ORAC, NIH, ACF, and HRSA;

      validated material omissions reported by the Department for the first reporting period as
       of December 9, 2009, and the second reporting period as of February 19, 2010, by
       comparing data from www.recovery.gov with the databases of grants and contracts
       maintained by NIH, ACF, and HRSA;

      determined how the Department identified and addressed noncompliant recipients;

      reviewed a judgmental sample of 30 recipient reports from NIH, ACF, and HRSA for the
       first reporting period to determine whether the Department identified reports with
       significant errors; and

      obtained Governmentwide data on recipient reporting from www.recovery.gov.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                    RESULTS OF REVIEW

For the first and second reporting periods, the Department’s limited data-quality reviews of
recipient-reported Recovery Act information identified material omissions and significant errors,
and the Department took several steps to minimize material omissions and significant errors.
Consequently, this report contains no recommendations.

IDENTIFYING MATERIAL OMISSIONS AND SIGNIFICANT ERRORS

Departmental Guidance

The Department’s guidance for data-quality reviews defined a material omission as failing to
submit a report.

For the first reporting period, the Department’s guidance defined a significant error as reporting
(1) an award amount or an award date that differs from agency records; (2) expenditures that are
greater than the award amount; (3) unreasonable estimates of the number of jobs created or
retained; or (4) the generic Treasury Account Symbol code 75.xxx, which does not identify the
program source within the Department.

For the second reporting period, the Department identified a different set of significant errors
based on OMB’s updated guidance (M-10-08). These errors included reporting an award


                                                 5
amount, an award number, or a Dun & Bradstreet Data Universal Numbering System (DUNS)
number 6 that differs from agency records and reporting job estimates that are unreasonably high
or low relative to the amount awarded.

Identifying Material Omissions

To identify material omissions, the Department matched information in the recipient reports on
www.federalreporting.gov (such as award numbers, DUNS numbers, and award amounts)
against its internal grant and contract databases. The Department identified 288 missing reports
for the first reporting period and 120 missing reports for the second reporting period. Table 1
compares the number of recipient reports that the Department expected to be submitted and the
actual number of reports submitted for the first and second reporting periods.

              Table 1: Comparison of Number of Expected and Submitted Reports for
                              First and Second Reporting Periods

                                           No. of Reports            No. of Reports           No. of Reports
                                             Expected                 Submitted                  Missing
     First reporting period                    17,651                    17,363                    288
     Second reporting period                   18,834                    18,714                    120

For the first and second reporting periods, we independently validated the number of missing
reports.

Of the 120 missing reports in the second reporting period, 41 reports were also missing in the
first reporting period. Recipients indicated to the Department that they did not submit the 41
reports for various reasons, such as confusion about reporting requirements and issues related to
uploading reports to www.federalreporting.gov.

Identifying Significant Errors

To identify significant errors, the Department performed automated queries, matches, analyses,
and, when necessary, manual reviews of the information on www.federalreporting.gov. For the
first reporting period, the Department identified 1,463 reports with 1,603 significant errors. The
most prevalent errors were unreasonable estimates of the number of jobs created or retained
(1,111 errors), award dates that differed from agency records (263 errors), and award amounts
that differed from agency records (117 errors). For the second reporting period, the Department
identified 284 reports with 291 significant errors. The most prevalent errors were job estimates
that were unreasonably high or low relative to the amount awarded (126 errors), award numbers
that differed from agency records (95 errors), and award amounts that differed from agency
records (36 errors).

Table 2 on the next page compares the number of significant errors and number of reports with
significant errors identified by the Department for the first and second reporting periods.

6
    A DUNS number is a unique nine-digit identification number assigned to each physical location of a business.


                                                           6
   Table 2: Comparison of Number of Significant Errors and Number of Reports With
              Significant Errors for First and Second Reporting Periods

                                                 No. of
                                 No. of       Reports With         No. of        Percentage of
                               Significant     Significant        Reports        Reports With
                                 Errors          Errors          Submitted     Significant Errors
 First reporting period          1,603            1,463            17,363             8.4%
 Second reporting period           291              284            18,714             1.5%

Our review of a judgmental sample of 30 recipient reports from NIH, ACF, and HRSA for the
first reporting period determined that the Department correctly identified the 5 reports with
significant errors. Based on these sample results and our determination that the Department’s
procedures for identifying significant errors did not change in the second reporting period, we
did not test recipient reports for the second period.

MINIMIZING MATERIAL OMISSIONS AND SIGNIFICANT ERRORS

The Department took several steps to minimize material omissions and significant errors in
recipient information.

Minimizing Material Omissions

To minimize material omissions in the first reporting period, the Department developed program
guidance, held conference calls with recipients, and created a call center for answering
recipients’ questions. The Department found that only 1.6 percent of the expected reports were
missing, less than the Governmentwide percentage. (See Table 3.)

       Table 3: Comparison of Governmentwide and Departmental Missing Reports
                              for First Reporting Period

                                                                                   Percentage of
                         No. of Reports      No. of Reports     No. of Reports       Reports
                           Expected           Submitted            Missing           Missing
  Governmentwide            131,986              127,627            4,359              3.3%
  Department                  17,651              17,363               288             1.6%

For the second reporting period, the Department made further outreach efforts to encourage
recipients to submit reports and focused on recipients that did not report during the first reporting
period. The number of missing reports that the Department identified decreased 58 percent from
the number identified in the first reporting period (from 288 to 120 reports). Only 0.6 percent of
the expected reports were missing, the same as the Governmentwide percentage. (See Table 4
on the next page.)




                                                 7
       Table 4: Comparison of Governmentwide and Departmental Missing Reports
                              for Second Reporting Period

                                                                                   Percentage of
                          No. of Reports     No. of Reports     No. of Reports       Reports
                            Expected          Submitted            Missing           Missing
  Governmentwide             161,818            160,782              1,036             0.6%
  Department                  18,834              18,714               120             0.6%

Minimizing Significant Errors

To minimize significant errors in the first reporting period, the Department developed program
guidance, held conference calls with recipients, and created a call center for answering
recipients’ questions. The Department also developed a Web-based display of award
information that recipients could use to check the information they reported.

For the second reporting period, the Department made further outreach efforts to encourage
recipients to provide the required information. The number of significant errors that the
Department identified decreased 82 percent from the number identified in the first reporting
period (from 1,603 to 291 errors).

After identifying significant errors in the first and second reporting periods, Department officials
notified the recipients of the need to correct their reports. After recipients made corrections, the
Department conducted a review and determined that the number of significant errors had
decreased 43 percent (from 1,603 to 910 errors) for the first reporting period and 20 percent
(from 291 to 233 errors) for the second reporting period.

CONCLUSION

For the first and second reporting periods, the Department’s limited data-quality reviews of
recipient-reported Recovery Act information identified material omissions and significant errors,
and the Department took several steps to minimize material omissions and significant errors.




                                                 8
